App. 2
IN THE COURT OF APPEAL OF THE
STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION: 5
DATE: December 4, 2020
(Filed Dec. 4, 2020)
CARL GORDON,
Petitioner and Appellant,
v.
REGENTS OF THE UNIVERSITY OF CALIFORNIA,
Respondent.
B301623
Los Angeles County Super. Ct. No. BS165809
THE COURT:
Appellant’s motion to vacate and set aside dismissal
order issued November 10, 2020, is denied.

App. 3
IN THE COURT OF APPEAL OF THE
STATE OF CALIFORNIA
SECOND APPELLATE DISTRICT
DIVISION FIVE
CARL GORDON,

B301623

Plaintiff and Appellant,
v.
REGENTS OF THE
UNIVERSITY OF
CALIFORNIA et al.,

(Los Angeles County
Super. Ct. No.
BS165809)
ORDER
(Filed Nov. 10, 2020)

Defendant and Respondent.
The Court:
Respondent’s motion to dismiss the appeal is
granted. Appellant purports to appeal from a nonappealable order. (Gov. Code, § 6259, subd. (c).) We de­
cline appellant’s request to treat the appeal as a
petition for writ relief. CMin Cal Consumer Law Group
v. Carlsbad Police Dept. (2013) 214 Cal.App.4th 259,
265.)
Is/ Rubin
RUBIN, P. J

/s/ Baker
BAKER, J.

/s/ Kim
KIM, J.

App. 4
GORDON v. REGENTS OF THE UNIVERSITY OF
CALIFORNIA
Case Number: BS165809
Hearing Date: September 4, 2019
ORDER DENYING IN PART AND GRANTING
IN PART PETITION FOR WRIT OF MANDATE
(Filed Sep. 4, 2019)
Petitioner Carl Gordon seeks a writ of mandate under
Code of Civil Procedure section 1085, subdivision (a),
and the California Public Records Act (CPRA) (Govern­
ment Code sections 6250 et seq.) requiring Respondent
Regent of the University of California to produce doc­
uments and unredacted documents concerning four
separate CPRA requests.
Respondent opposes the petition. Petitioner did not file
a reply.
The Petition is DENIED in part and GRANTED in part.
STATEMENT OF THE CASE1
On various dates in 2016, Petitioner made several
CPRA requests of Respondent.
1 The court ordered Petitioner to lodge the record with the court
when he filed his Reply Brief. Petitioner did not file a Reply Brief.
He also did not lodge the record. The underlying facts are not dis­
puted. The court has set forth the undisputed facts as it discerned
them from the briefs. Therefore, the court has not set forth any
citations to the record. [MISSTATEMENT OF FACTS. Please see
Apps. 25, 30, 31, and 39]

App. 5
On March 29, 2016, Petitioner requested the “donor
agreement between Lowell Milken and UCLA” and
“any communications relating to Mr. Milken’s $10 mil­
lion gift to UCLA for the establishment of the Lowell
Milken Institute for Business Law and Policy at the
UCLA School of Law in 2011” (Milken Request).
On April 4, 2016, Petitioner requested the “Donor
agreement between Donald T. Sterling Charitable
Foundation/the Los Angeles Clippers Foundation and
UCLA” and “any [communications] relating to Mr.
Sterling’s gifts of $3 million to UCLA in 2013 or 2014”
(Sterling Request).
On April 5, 2016, Petitioner requested the “donor
agreement between Dr. Sharon Baradaran, Mr. Younes
Nazarian, Mrs. Soraya Nazarian, David Nazarian,
members and representatives of the Y&S Nazarian
Family Foundation” and any communications relating
to donations made by the Nazarians (Nazarian Re­
quest).
Finally, on April 6, 2016, Petitioner requested copies of
communications between various high-ranking UCLA
and UC Regents officials related to Petitioner’s pro­
posals on behalf of the organization he controls, Uni­
versity of the ‘Hood (Communications Request).
Respondent’s Records Management and Information
Practices Office (IP Office) acknowledged receipt of
Petitioner’s CPRA requests. (Baldridge Decl., 3.) The
IP Office indicated it would need additional time to
respond to the CPRA requests. (Baldridge Deck, 1 4.)

App. 6
Respondent produced some records in response to Pe­
titioner’s requests. Some of the documents Respondent
produced, however, were redacted prior to production.
Finally, Respondent withheld some documents based
on privacy claims as well as statutory exemptions.
Specifically, the IP Office provided the following re­
sponses to Petitioner’s CPRA requests:
As to the Milken Requests, the IP Office produced 84
pages of documents and withheld the remaining docu­
ments on the grounds the release would constitute an
unwarranted invasion of personal privacy, the materi­
als were considered proprietary as well as confidential,
and disclosure was protected under the deliberative
process exemption. (Amended Pet., f 17.)
As to the Sterling Request, the IP Office produced 48
pages of documents and withheld the remaining re­
sponsive documents on the grounds the release would
constitute an unwarranted invasion of personal pri­
vacy and it would require the disclosure of protected
student information. (Amended Pet., 18.)
As to the Nazarian Request, the IP Office produced 11
pages of documents and informed Petitioner it was
withholding exempt material on the grounds release
would constitute an unwarranted invasion of personal
privacy and certain documents were ordinarily not re­
tained by the agency in the ordinary course of business.
(Amended Pet., 'll 19.)
Finally, as to the Communications Request, the IP Of­
fice produced 54 pages of documents and informed

App. 7
Petitioner it was withholding exempt material on the
grounds release would constitute an unwarranted in­
vasion of personal privacy, and disclosure was pro­
tected by the deliberative process as well as the
attorney-client and attorney-work product privileges.
(Amended Pet., f 20.)
Thereafter, on October 11,2016, this writ petition ensued.
STANDARD OF REVIEW
Code of Civil Procedure section 1085, subdivision (a)
provides in relevant part:
“A writ of mandate may be issued by any court
to any inferior tribunal, corporation, board, or
person, to compel the performance of an act
which the law specially enjoins, as a duty re­
sulting from an office, trust, or station, or to
compel the admission of a party to the use and
enjoyment of a right or office to which the
party is entitled, and from which the party is
unlawfully precluded by that inferior tribu­
nal, corporation, board, or person.”
“There are two essential requirements to the issuance
of a traditional writ of mandate: (1) a clear, present and
usually ministerial duty on the part of the respondent,
and (2) a clear, present and beneficial right on the part
of the petitioner to the performance of that duty.
0California Ass’n for Health Services at Home v. De­
partment of Health Services (2007) 148 Cal.App.4th
696, 704.) “Generally, a writ will lie when there is no
plain, speedy, and adequate alternative remedy. . . .”

App. 8
(Pomona Police Officers’Ass’n v. City of Pomona (1997)
58 Cal.App.4th 578, 583-84.)
“When there is review of an administrative decision
pursuant to Code of Civil Procedure section 1085,
courts apply the following standard of review: ‘[Judi­
cial review is limited to an examination of the proceed­
ings before the [agency] to determine whether [its]
action has been arbitrary, capricious, or entirely lack­
ing in evidentiary support, or whether [it] has failed to
follow the procedure and give the notices required by
law.’ [Citations.]” (Id. at 584)
Pursuant to the CPRA, individual citizens have a right
to access government records. In enacting the CPRA,
the California Legislature declared that “access to
information concerning the conduct of the people’s
business is a fundamental and necessary right of every
person in this state.” (Gov. Code § 6250; see also
County of Los Angeles u. Superior Court (2012) 211
Cal.App.4th 57, 63.) Government Code section 6253,
subdivision (b) states:
“Except with respect to public records exempt
from disclosure by express provisions of law,
each state or local agency, upon a request for
a copy of records that reasonably describes an
identifiable record or records, shall make the
records promptly available to any person
upon payment of fees covering direct costs of
duplication, or a statutory fee if applicable.
Upon request, an exact copy shall be provided
unless impracticable to do so.”
(Gov. Code § 6253, subd. (b).)

App. 9
ANALYSIS
Respondent Properly WithheldfRedacted Records
Based on Privacy Interests:
In response to Petitioner’s CPRA request, Respondent,
as demonstrated through its fairly detailed privilege
log and explanation, only withheld or redacted the fol­
lowing information based on privacy: (i) the personal
cell phone numbers of two UCLA employees, (ii) the
home address of one of the donors, and (iiii) Milken’s
personal financial details.
First, as to the employees’ personal cell phone num­
bers, Respondent argues this information was properly
withheld pursuant to Government Code section
6254.3. This section provides: “The home addresses,
home telephone numbers, personal cellular telephone
numbers, and birth dates of all employees of a public
agency shall not be deemed public records and shall
not be open to public inspection. . . .” (Gov. Code,
§ 6254.3, subd. (a) [emphasis added].) Respondent’s re­
daction of this information was proper.
Second, as to the home address of a donor, Respondent
argues, under the Information Practices Act of 1977
(IPA), such disclosure would be improper. Respondent
cites no legal authority suggesting the IPA informs on
disclosures under the CPRA.
In any event, the court agrees that withholding this
home address information through a redaction under
the CPRA is proper. “[CJourts closely scrutinize any
proposed disclosure of names and home addresses

App. 10
contained in public records because individuals have a
substantial privacy interest in their home addresses.”
(Lorig v. Medical Board (2000) 78 Cal.App.4th 462,468
[citing City of San Jose v. Superior Court (1999) 74
Cal.App.4th 1008,1019-1020].) Petitioner does not dis­
pute Respondent’s position. Here, the court finds the
public interest in not disclosing this very private infor­
mation is outweighed by the public interest in disclo­
sure. (Gov. Code § 6252, subd. (a).)
Finally, in conjunction with the Milken Request, Re­
spondent produced a privilege log indicating the docu­
ments it withheld related to Milken’s personal
financial details, such as banking information and
stock information. It also withheld communications by
Respondent involving its decision-making process
when considering Milken’s donation. (Baldrige Deck, 9,
Ex. A.)
Although not substantively addressed by Respondent,
the court finds the public interest in not disclosing this
information outweighs the public interest in disclosure
based on the facts in this case. (Gov. Code § 6255, subd,
(a).)
The underlying reason for the petition and the CPRA
requests was Petitioner’s work through his communitybased advocacy organization, University of the ‘Hood,
whose mission is to “disseminate the truth about
America’s history, particularly emphasizing the African
and African American experiences.” As part of his work
with this organization, Petitioner has been lobbying
UCLA to support various proposals, including the

App. 11
posthumous award from UCLA to Jackie Robinson, the
designation of a degree program at the Anderson
School of Management in Mr. Robinson’s honor as the
“Jackie Robinson Program in Sports Management,”
and renaming “Le Conte Way” to “Jackie Robinson
Way.” Petitioner’s “purpose was to encourage UCLA to
distance itself from its association with individuals or
legacies that, in the past, had supported discrimina­
tion, and instead honor individuals, such as Jackie
Robinson, considered heroes and pioneers of diversity
and civic values.” (Opening Brief 2:15-18.)
Based on these issues, other than the importance of
complete governmental transparency, the court is un­
able to determine any public interest in either the do­
nor’s home address or Milken’s private financial
information—information not about a governmental
entity but about a private individual unrelated to the
entity. The court acknowledges, however, a lack of pub­
lic interest alone does not justify withholding public
records absent a public interest in nondisclosure. The
court finds there is a strong public interest and policy
in encouraging charitable donations. If the court al­
lowed the release of donor’s private information (e.g.,
home addresses and banking or financial information)
through a generalized CPRA request, other potential
donors may be discouraged from making donations
based on concern their private information may be
publicly released. (See California State University v.
Superior Court (2001) 90 Cal.App.4th 810, 834.)
Given the substantial privacy in an individual’s home
address and Milken’s financial information and the

App. 12
absence of any argument in favor of disclosure of this
information, the court finds the redactions from the
Nazarian Request and Milken Request were proper.
While every case is different, here, the circumstances
do not warrant release.
Additionally, contrary to Petitioner’s argument (Open­
ing Brief 5), Respondent was not withholding donor
names or amounts already within the public domain.
Rather, Respondent specifically produced the donor
name and amount in response to the Milken Request,
the Sterling Request and the Nazarian Request.
Respondent Failed to Justify Withholding Rec­
ords based on the Deliberative Process and Draft
Exemptions:
Respondent also acknowledges it withheld certain doc­
uments based on the “deliberative process privilege.”
“The right of access to public records under the CPRA
is not absolute.” (Copley Press, Inc. v. Superior Court
(2006) 39 Cal.4th 1272, 1283.) The CPRA makes clear
that “every person” has a right to inspect any public
record (Gov. Code § 6253, subd. (a)), for any purpose
(Gov. Code § 6257.5), subject to certain exemptions, in­
cluding those found in Government Code section 6255.
Section 6255 exempts from disclosure documents
which are protected by the deliberative process privi­
lege. (Wilson v. Superior Court (1996) 51 Cal.App.4th
1136,1142.)
“ [I] t is the public agency’s burden to prove a basis for
nondisclosure of a public record.” (Sander v. Superior

App. 13
Court (2018) 26 Cal.App.5th 651, 670.) “The exemp­
tions are to be construed narrowly.” (Humane Society
ofU.S. v. Superior Court (2013) 214 Cal.App.4th 1233,
1254.) “The burden of proof as to the application of an
exemption is on the proponent of nondisclosure, who
must demonstrate ‘that on the facts of the particular
case the public interest served by not disclosing the
record clearly outweighs the public interest served by
disclosure of the record.” (Id. at 1255 [quoting Gov.
Code §5255].)
“Under the deliberative process privilege, senior offi­
cials of all three branches of government enjoy a qual­
ified, limited privilege not to disclose or to be examined
concerning not only the mental processes by which a
given decision was reached, but the substance of con­
versations, discussions, debates, deliberations and like
materials reflecting advice, opinions, and recommen­
dations by which government policy is processed and
formulated.” (Citizens for Open Government v. City of
Lodi (2012) 205 Cal.App.4th 296, 305; Caldecott v.
Superior Court (2015) 243 Cal.App.4th 212, 225.)
Importantly, “[n]ot every disclosure which hampers the
deliberative process implicates the deliberative pro­
cess privilege. Only if the public interest in nondisclo­
sure clearly outweighs the public interest in disclosure
does the deliberative process privilege spring into ex­
istence. The burden is on the [one claiming the privi­
lege] to establish the conditions for creation of the
privilege. The trial court’s determination is subject to
de novo review by this court, although we defer to any
express or implied factual findings of the superior

App. 14
court.” {.California First Amendment Coalition v. Supe­
rior Court (1998) 67 Cal.App.4th 159,172-173; Citizens
for Open Government v. City of Lodi (2012) 205
Cal.App.4th 296, 306.)
In reviewing the privilege log the court notes several
documents were withheld based on the deliberative
process exemption. The court finds the following docu­
ment was properly withheld based on the deliberative
process exemption:
(1) Dean Moran’s notes on telephone conversa­
tion with Lowell Milken
(Baldridge Decl., 1 9, Ex. A, p. 1, 10 [Privilege Log].)
These notes appear to be, based on their description,
private notes used to deliberate on the on the various
donations.
According to the privilege log, Talking Points for Chan­
cellor Block Nazarian Reception were withheld based
on Government Code section 6254, subdivision (a).
(Baldridge Deck, f 9, Ex. A, p. 10 [Privilege Log].) That
provision provides an exemption to a CPRA request
when the documents fall into the category of“ [prelim­
inary drafts, notes, or interagency or intra-agency
memoranda that are not retained by the public agency
in the ordinary course of business, if the public interest
in withholding those records clearly outweighs the
public interest in disclosure.”
Respondent has provided no information to support
this exemption. Nothing in the declarations filed in
support of Respondent’s opposition factually supports

App. 15
this claimed exemption. The court cannot find these
notes “are not retained by the public agency in the or­
dinary course of business.” (Gov. Code § 6254, subd.
(a).) That the document exists suggests otherwise.
Without some factual basis to support the exemption,
Respondent has not justified the exemption.
Correspondence between Dean Moran and Lowell
Milken,2 are also not subject to a deliberative process
exemption. Respondent, the party with the burden, has
failed to show how these records and communications
by Respondent with a third party, would disclose “the
mental processes by which a given decision was
reached,. . . [or] the substance of conversations, discus­
sions, debates, deliberations and like materials reflect­
ing advice, opinions, and recommendations by which
government policy is processed and formulated.” (Citi­
zens for Open Government v. City of Lodi, supra, 205
Cal.App.4th at 305.) Certainly, Respondent’s position
that these are private internal discussions is mis­
taken—the occurred with a third party outside of the
governmental entity. (Opposition 11:3-6.) Respondent’s
justification for withholding the documents is insuffi­
cient. Respondent provides only conclusory and vague
evidence to support a finding these records are subject
to deliberative process exemption. (Sina Deck, ff 3-4.)
Respondent’s justification for withholding the docu­
ments is nothing more than a general statement of
2 Dated 3/16/2011, 6/21/2011, 6/21/2011, 2/17/2011, 3/21/2011,
3/25/2011, 3/6/2012, 7/26/2012, 3/25/2013, 7/14/2011, 10/7/2011,
11/16/2011, 7/26/2012, 5/7/2013, 7/15/2011.

App. 16
why the privilege in general is necessary. Respondent’s
position here is very similar to the one taken by the
municipality in Citizens for Open Government v. City
of Lodi, supra, 205 Cal.App.4th at 296 where the ap­
pellate court found the municipality had not met its
burden of establishing the deliberative process privi­
lege.
Citizens for Open Government v. City of Lodi concerned
a city’s certification of an Environmental Impact Re­
port (EIR) for a large commercial development. Oppo­
nents of the development sought city staff emails
concerning the preparation of the EIR through a CPRA
request. The city withheld emails claiming deliberative
process privilege. On the development opponent’s writ
petition seeking the withheld documents, the city
claimed “that disclosing staff communications would
hamper candid dialogue and a testing and challenging
of the approaches to be taken.. . .” {Id. at 307 [internal
quotations omitted].) The development opponent ar­
gued the justification “is not sufficient to demonstrate
the public interest in nondisclosure clearly outweighs
the public interest in disclosure.” {Ibid.)
Under such facts, the Court of Appeal found “the city
never established the conditions for creation of the
privilege. The city’s explanation ... of why the privi­
lege applies, i.e., to ‘foster candid dialogue and a test­
ing and challenging of the approaches to be taken,’ was
simply a policy statement about why the privilege in
general is necessary.” {Ibid.) The Court of Appeal con­
tinued, “Indeed, the city’s explanation was similar to
one of the policy reasons for the deliberative process

App. 17
privilege enunciated by this court: the privilege ‘pro­
tects creative debate and candid conversation of alter­
natives within an agency, and, thereby, improves the
quality of agency policy decisions.’ ” (Ibid, [quoting Cal­
ifornia First Amendment Coalition v. Superior Court,
supra, 67 Cal.App.4th at 170].)
The Court of Appeal further explained “invoking the
privilege is not sufficient to explain the public’s specific
interest in nondisclosure of the documents in this case.
That policy could apply to almost any decisionmaking
process.” (Ibid.) The Court of Appeal concluded the city
had not met its burden of establishing the deliberative
process exception, or why the public’s interest in non­
disclosure was clearly outweighed by the public’s in­
terest in disclosure. (Ibid.)
In a footnote, Citizens for Open Government v. City of
Lodi explained its decision was informed by two cases
where the public entities’ explanations were suffi­
cient—Times Mirror Co. v. Superior Court (1991) 53
Cal.3d 1325 and California First Amendment Coalition
v. Superior Court, supra, 67 Cal.App.4th at 159.
In Times Mirror Co. v. Superior Court, our Supreme
Court found the deliberative process privilege was
properly invoked as to a request for five years of the
governor’s appointment calendars and schedules. The
governor believed releasing the information would dis­
courage persons from attending meetings or lead to
unwarranted inferences about the subjects under dis­
cussion. Disclosure would reveal persons, issues and
events deemed worthy of the governor’s time. The

App. 18
Supreme Court agreed disclosure of such materials im­
plicated the privilege and disclosure “would inhibit ac­
cess to the broad spectrum of persons and viewpoints
which [the governor] requires to govern effectively.”
(Times Mirror Co. v. Superior Court, supra, 53 Cal.3d
at 1339.) The Supreme Court recognized the public in­
terest in disclosure but found that interest was out­
weighed because the “massive weight” of the request—
five years of calendars—undermined the public inter­
est in the disclosure. (Id. at 1345.)
California First Amendment Coalition u. Superior
Court concerned a CPRA request to the governor’s of­
fice seeking letters and applications submitted for a
vacant Plumas County supervisor position. The Court
of Appeal found disclosing the applications would have
an adverse impact on the number of applicants as it
“would likely reduce the applicant pool and the candor
of those who apply.” (California First Amendment Coa­
lition v. Superior Court, supra, 67 Cal.App.4th at 172.)
In a more recently decided case, Humane Society of
U.S. v. Superior Court, supra, 214 Cal.App.4th at 1233,
the governmental entity, the University of California,
presented expert testimony concerning the specific in­
terests in nondisclosure. In the context of agricultural
research, disclosure would lead to less raw data pro­
vided from farmers who had been assured of the infor­
mation they provided would remain confidential. (Id.
at 1241.) The expert opined other information reflected
in the records was incomplete based on the sometimes
incomplete manner in which researchers communi­
cated. (Id. at 1242.) The expert believed incomplete

App. 19
information would lead to misinterpretation that
would ultimately negate the quality of the research
and/or the investigators. (Ibid.) On such a specific
showing, after balancing the public interest in nondis­
closure against that of the public in disclosure, the
court found the deliberative privilege applied.
Respondent’s justification here is simply inadequate
as to this category of documents: “Based on my 7 years
of experience soliciting donations for UCLA, it is my
opinion that the disclosure of these materials would
expose UCLA and The Regents of the University of
California’s decision process in a way that would dis­
courage candid discussion, under the UCLA’s ability to
perform its functions, and/or significantly impact the
donor at issue or other potential donors’ decisions of
whether to give to UCLA.” (Sina Decl., f 4.)
Respondent also withheld the following documents:
(1) Letter from Dean Moran to Chancellor Block
(3/15/2011)
(2) Email chain between Mick Deluca and Dan
Guerrero (1/20/2016)
(Baldridge Deck, H 9, Ex. A, p. 9,11 [Privilege Log].)
Again, Respondent provides no evidence of the nature
or general content contained within these records to
support the deliberative process exemption. (Sina
Deck, 114.) In fact, with respect to the email between
Mick Deluca and Dan Guerrero, it is not even clear
that these individuals are employees of Respondent.

App. 20
Petitioner Fails to Challenge the Nondisclosure
based on Attorney Client Privilege:
Subdivision (k) of Government Code section 6254, pro­
vides an exemption for “[r]ecords, the disclosure of
which is exempted or prohibited pursuant to federal or
state law, including, but not limited to, provisions of the
Evidence Code relating to privilege.” Pursuant to this
subdivision, documents protected by the attorney-cli­
ent privilege are not subject to CPRA disclosure.
(County of Los Angeles v. Superior Court (2012) 211
Cal.App.4th 57, 64; Roberts v. City of Palmdale (1993)
5 Cal.4th 363, 370 [“By its reference to the privileges
contained in the Evidence Code . . . the Public Records
Act has made the attorney-client privilege applicable
to public records”]; Sanchez v. County of San Bernar­
dino (2009) 176 Cal.App.4th 516,527 [“The Public Rec­
ords Act does not require the disclosure of a document
that is subject to the attorney-client privilege”].)
Here, Respondent redacted three records based on at­
torney-client privilege/work product:
(1) 1/20/2016 email with Bill Cormier, Scot
Waugh, Steve Olsen and Attorney Amy Blum
(2) 1/20/2016 email with Bill Cormier, Scot
Waugh, Steve Olsen and Attorney Amy Blum
(3) 1/20/2016 email with Bill Cormier, Scot
Waugh, Steve Olsen and Attorney Amy Blum
(Baldridge Deck, f 9, Ex. A, p. 10,12 [Privilege Log].)
Petitioner’s brief does not challenge Respondent’s non­
disclosure of these records. Based on the information

App. 21
provided, it appears the documents were properly
■ withheld on the basis of attorney-client privilege.
CONCLUSION
Based on the foregoing, the petition is GRANTED in
part.
The correspondence between (1) Dean Moran and Low­
ell Milken3 as well as the (2) Letter from Dean Moran
to Chancellor Block dated 3/15/2011, (3) Talking Points
for Chancellor Nazarian Reception, and (4) the email
chain between Mick Deluca and Dan Guerrero dated
1/20/16 shall be produced and provided to Petitioner
within 10 days.
The petition is otherwise denied.
IT IS SO ORDERED.
September 4, 2019

_________________________
Hon. Mitchell Beckloff
Judge of the Superior Court

3 Dated 3/16/2011, 6/21/2011, 6/21/2011, 2/17/2011, 3/21/2011,
3/25/2011, 3/6/2012, 7/26/2012, 3/25/2013, 7/14/2011, 10/7/2011,
11/16/2011, 7/26/2012, 5/7/2013, 7/15/2011.

App. 22
SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES
DEPARTMENT CE-86
DEPARTMENT CE-86
HON. AMY D. HOGUE, JUDGE
HON. MITCHELL L. BECKLOFF, JUDGE
CARL GORDON,
PETITIONER,
vs.
REGENTS OF THE
UNIVERSITY OF
CALIFORNIA, ET AL.,
RESPONDENT.

)
)
)
)

) Case No.: BS165809
)
)
)

REPORTERS’ TRANSCRIPT OF PROCEEDINGS
June 14 and August 25, 2017
September 5 and November 21, 2018
September 4 and 27, 2019
VOLUME
1 of 1
1 through
Pages
Pages 301 through
Pages 601 through
Pages 901 through
Pages 1201 through
Pages 1501 through

2 - 300 J.Hollifield,
CSR 12564
303 - 600
626 - 900
931 - 1200 D.Van Dyke,
1216 - 1500 CSR 10975
Official Reporters
1501 - 1800

App. 23
APPEARANCES:
FOR PETITIONER:
BY:

Carl Gordon
In Propria Persona

LAW OFFICES OF KELLY A. AVILES
BY: Kelly A. Aviles, Attorney at Law
1502 Foothill Boulevard, Suite 103-140
La Verne, California 91750
909.991.7560
Kaviles@opengovlaw.com
GLASER WEIL
BY: Felton T. Newell, Attorney at Law
10250 Constellation Boulevard, 19th Floor
Los Angeles, California 90067
310.533.3000
fnewell@glaserweil .com
FOR RESPONDENT:
BEST BEST AND KRIEGER
BY: Thomas M. O’Connell, Attorney at Law
(appearing telephonically)
BY: Howard Golds, Attorney at Law
(appearing telephonically)
3390 University Avenue, Fifth Floor
Riverside, California 92501
951.686.1450
Thomas.oconnell@bbklaw.com
Howard.Golds@bbklaw.com

App. 24
INDEX
June 14 and August 25, 2017
September 5 and November 21, 2018
September 4 and 27, 2019
Volume 1 of 1
ALPHABETICAL and
CHRONOLOGICAL INDEX of WITNESSES
(none)
EXHIBITS
(none offered)
[1] CASE NUMBER:

BS165809

CASE NAME:

CARL GORDON
VS.
REGENTS OF THE
UNIVERSITY OF
CALIFORNIA, ETAL.

LOS ANGELES, CA

JUNE 14, 2017

DEPARTMENT CE-86

HON. AMY D. HOGUE,
JUDGE

REPORTER:

J.HOLLIFIELD, CSR 12564

TIME:

9:37 a.m.

APPEARANCES:

(As indicated on title page.)

(The following telephonic hearing was reported
in open court pursuant to CRC 3.670. The record
will reflect proceedings that were telephonically
transmitted. Failures in transmission will be noted.)

App. 25
THE COURT:

Court calls Number 2, please,

Gordon.
MR. GOLDS: Good morning, Your Honor.
Howard Golds, Best Best and Krieger, on behalf of the
Regents of the University of California.
THE COURT: Okay. Good morning, sir.
MR. NEWELL: Good morning, Your Honor.
Felton Newell on behalf of the petitioner, Mr. Gordon.
THE COURT: Okay. Hi. Have a seat. Okay.
So this is also a trial setting conference, and I see there
was a verified first amended petition. Are we ready to
set it for trial? Is there an issue about the record?
MR. NEWELL: We’re ready to set it for trial.
THE COURT:
[2] prepared?

Is the administrative record

MR. GOLDS: It is not, Your Honor.
THE COURT: Okay. I can’t set it for trial un­
til I know the administrative record is prepared. Have
you requested the record?
MR. NEWELL:

I’ve not finalized that pro­

cess yet.
THE COURT: Okay. So you need to take the
laboring oar because I won’t set it for trial until the
record is complete. So I will just put this also over until
August 25th if that’s okay with everybody as a date at
9:30 continued trial setting conference.

App. 26
MR. NEWELL: That’s fine.
MR. GOLDS: That’s fine, Your Honor.
THE COURT: Okay. Mr. Newell, please do
what you have to do to get the case moving.
MR. NEWELL:

I will do that.

THE COURT: Thanks. Is notice waived,
gentleman?
MR. NEWELL: Notice waived.
MR. GOLDS: Notice is waived, Your Honor.
THE COURT: All right. Thanks a lot.
(The proceedings concluded for the day at 9:38 a.m.)
I/Ill
Ill//
Ill//
(The next page number is 301.)

App. 27

SUPERIOR COURT OF CALIFORNIA,
COUNTY OF LOS ANGELES
DATE: 08/25/17
DEPT. 86
HONORABLE AMY D. HOGUE F. BECERRA
JUDGE
DEPUTY CLERK
HONORABLE
B. HALL,
JUDGE PRO TEM COURTROOM ASST.
2
ELECTRONIC
RECORDING
Deputy Sheriff
MONITOR
J HOLLIFIELD
CSR #12564
Reporter
9:30 am BS165809

Plaintiff
Counsel FELTON T.
NEWELL (X)

CARL GORDON
VS
REGENTS OF THE Defendant
UNIVERSITY OF
Counsel HOWARD
CALIFORNIA ET AL GOLDS (CC)
NATURE OF PROCEEDINGS:
TRIAL SETTING CONFERENCE

The matter is called for hearing.
The Court and counsel confer regarding the
status of the record. Counsel for petitioner has
not requested the preparation of the record.
Trial Setting Conference is continued to Au­
gust 25, 2017 at 9:30 a.m. in this department.
Notice is waiv.ed.

App. 28
[301] CASE NUMBER:

BS165809

CASE NAME:

CARL GORDON
VS.
REGENTS OF THE
UNIVERSITY OF
CALIFORNIA, ETAL.

LOS ANGELES, CA

AUGUST 25, 2017

DEPARTMENT CE-86

HON. AMY D. HOGUE,
JUDGE

REPORTER:

J.HOLLIFIELD, CSR 12564

TIME:

9:48 a.m.

APPEARANCES:

(As indicated on title page.)

(The following telephonic hearing was reported in
open court pursuant to CRC 3.670. The record will
reflect proceedings that were telephonically trans­
mitted. Failures in transmission will be noted.)
THE COURT: Number 3, Gordon.
MR. O’CONNELL: Good morning, Your
Honor. Tom O’Connell on behalf of the Regents, Uni­
versity of California.
THE COURT: Hi.
MR. NEWELL: Good morning, Your Honor.
Felton Newell on behalf of petitioner, Mr. Gordon.
THE COURT: Okay. So last time, the peti­
tioner hadn’t asked for a record, and so I had to read
the trial setting. Is the record getting prepared now?

App. 29
MR. NEWELL: It’s been prepared, and I be­
lieve lodged with the Court.
THE COURT: All right. Terrific. So shall I
set it for trial then?
[302] MR. NEWELL: Yes, please.
THE COURT:
trial date is -

Okay. Terrific. Then our next

THE CLERK: March 7th.
THE COURT: - March 7th at 9:30, please.
Is that okay with everybody? 2018. March 7th.
MR. NEWELL:
that’s fine, Your Honor.

Give me one second. Yes,

THE COURT: Good.
MR. NEWELL: What time is it?
THE COURT:
MR. NEWELL:

9:30.
9:30.

THE COURT: Okay. So opening briefs are
due 60 court days before the hearing; opposition, 30
court days before the hearing; reply, 15. Make sure I
have the record at least 15 court days before the hear­
ing and I’ll look forward to seeing you then.
Notice waived? Somebody want to give notice?
MR. O’CONNELL: Notice waived, Your Honor.

App. 30
MR. NEWELL: Just wanted to clarify, Your
Honor. So you need the record 15 court days. The other
dates - were they all court dates or just THE COURT: They’re all court days.
MR. O’CONNELL: All court days.
THE COURT: Yes. All court days just to
make it tricky. Thank you.
MR. NEWELL: Thank you, Your Honor.
[303] MR. O’CONNELL: And, Your Honor,
just very quickly, we attempted to lodge the adminis­
trative record yesterday; and we were told that we could
not lodge the record until a trial was set. We will try to
re-lodge the record here in the next couple of days.
THE COURT: Okay. That’s great.
MR. O’CONNELL: Petitioner already has
the record. We’ve sent a courtesy copy already.
THE COURT:

Sounds good.

THE CLERK: Counsel, do not lodge the rec­
ord until it’s ready. We don’t have room to store it.
THE COURT: Yes. I think he said it’s going
to be ready.
THE CLERK: Yeah. But he wants to submit
it now; we don’t have room to store it.
THE COURT: Call Fernando and talk to
him. don’t know if we have storage for it so early. Okay.

App. 31
MR. NEWELL: Thank you very much.
MR. O’CONNELL:
THE COURT:

Okay, not a problem.

Thank you.

(The proceedings concluded for the day at 9:50 a.m.)
//Ill
//Ill
//Ill
(The next page number is 601.)

SUPERIOR COURT OF CALIFORNIA,
COUNTY OF LOS ANGELES
DEPT. 86
HONORABLE AMY D. HOGUE F. BECERRA
JUDGE
DEPUTY CLERK
HONORABLE
JUDGE PRO TEM
ELECTRONIC
DATE: 08/25/17

#3
Deputy Sheriff

9:30 am BS165809

RECORDING
MONITOR
J. HOLLIFIELD
CSR #12564
Reporter
Plaintiff
Counsel FELTON T.
NEWELL (X)

CARL GORDON
VS
REGENTS OF THE Defendant
UNIVERSITY OF
Counsel THOMAS
CALIFORNIA ET AL M, O’CONNELL (CC)

App. 32
NATURE OF PROCEEDINGS:
TRIAL SETTING CONFERENCE
The matter is called for hearing.
The Court and counsel confer regarding the
status of the record.
Hearing on writ of mandate is set for March
7, 2018 at 9:30 a.m. in this department.
Briefing schedule is ordered as follows:
- Petitioner’s opening brief is to be served
and filed sixty court days prior to the hear­
ing.
- Respondent’s opposition brief is to be
served and filed thirty court days prior to die.
hearing.
- Petitioner’s reply brief is to be served and
filed fifteen court days prior to the hearing.
Administrative record is to be lodged fifteen<
court days prior to the hearing.
All papers are to be filed directly in Depart­
ment 86.
Notice is waived.

App. 33

SUPERIOR COURT OF CALIFORNIA,
COUNTY OF LOS ANGELES
DATE: 09/05/18

DEPT. 86

HONORABLE MITCHELL L. F. BECERRA
BECKLOFF
JUDGE B. BYERS, C/A
DEPUTY CLERK
HONORABLE
JUDGE PRO TEM
1
ELECTRONIC
Deputy Sheriff
RECORDING
MONITOR
J. HOLLIFIELD
CSR #12564
Reporter
9:31 am BS165809

Plaintiff
CARL GORDON (X) Counsel KELLY A.
AVILES (X)
VS
REGENTS OF THE Defendant
UNIVERSITY OF
Counsel THOMAS
CALIFORNIA ET AL m, O’CONNELL (CC)
NATURE OF PROCEEDINGS:

PETITIONER MOTION TO BE RELIEVED
AS COUNSEL
The matter is called for hearing.
After argument, the motion to be relieved as
counsel is granted.
Order is signed and filed this date.
Hearing on petition for writ of mandate set
for September 28, 2019 is advanced and

App. 34
continued to March 27, 2019 at 9:30 a.m. in
Department 86.
Petitioner’s reply brief is to be served and
filed fifteen days prior to the hearing.
Administrative record is to be lodged fifteen
days prior to the hearing.
All papers are to be filed directly in Depart­
ment 86.
Notice is deemed waived.

App. 35

SUPERIOR COURT OF CALIFORNIA,
COUNTY OF LOS ANGELES
DATE: 09/05/18

DEPT. 86

HONORABLE MITCHELL L. F. BECERRA
BECKLOFF
JUDGE B. BYERS, C/A
DEPUTY CLERK
HONORABLE
JUDGE PRO TEM
1
ELECTRONIC
Deputy Sheriff

9:31 am BS165809

RECORDING
MONITOR
J. HOLLIFIELD
CSR #12564
Reporter
Plaintiff
Counsel KELLY A.
AVILES (X)

CARL GORDON (X)
VS
REGENTS OF THE Defendant
UNIVERSITY OF
Counsel THOMAS M.
CALIFORNIA ET AL O’CONNELL (CC)
NATURE OF PROCEEDINGS:
PETITIONER MOTION TO BE RELIEVED
AS COUNSEL
The matter is called for hearing.
After argument, the motion to be relieved as
counsel is granted.
Order is signed and filed this date.
Hearing on petition for writ of mandate set
for September 28, 2019 is advanced and

App. 36
continued to March 27, 2019 at 9:30 a.m. in
Department 86.
Petitioner’s reply brief is to be served and
filed fifteen days prior to the hearing.
Administrative record is to be lodged fifteen
days prior to the hearing.
All papers are to be filed directly in Depart­
ment 86.
Notice is deemed waived.

SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES
DEPARTMENT CE-86
HON. MITCHELL L. BECKLOFF, JUDGE
CARL GORDON,
PETITIONER,
vs.
REGENTS OF THE
UNIVERSITY OF
CALIFORNIA, ET AL.,
RESPONDENT.

)
)
)
)

) Case No.: BS165809
)
)
)

REPORTERS’ TRANSCRIPT OF PROCEEDINGS
TELEPHONIC HEARING
September 5, 2018

App. 37
APPEARANCES:
FOR PETITIONER:
LAW OFFICES OF KELLY A. AVILES
BY: Kelly A. Aviles, Attorney at Law
1502. Foothill Boulevard, Suite 103-140
La Verne, California 91750
909.991.7560
Kaviles@opengovlaw. com
BY: Carl Gordon, In Propria Persona
FOR RESPONDENT:
BEST BEST AND KRIEGER
BY: Thomas M. O’Connell, Attorney at Law
(appearing telephonically)
3390 University Avenue, Fifth Floor
Riverside, California 92501
951.686.1450
Thomas. oconnell@bbklaw. com
Howard.Golds@bbklaw.com
Reported by:
J.Hollifield, RPR, CSR 12564
Official Reporter
INDEX
September 5, 2018
September 4 and 27, 2019
Volume 1 of 1
ALPHABETICAL and
CHRONOLOGICAL INDEX of WITNESSES
(none)

App. 38
EXHIBITS
(none offered)
[1] CASE NUMBER:

BS165809

CASE NAME:

CARL GORDON
vs.
REGENTS OF THE
UNIVERSITY OF
CALIFORNIA, ET AL.

LOS ANGELES, CA

SEPTEMBER 5, 2018

DEPARTMENT CE-86

HON. MITCHELL L.
BECKLOFF, JUDGE

REPORTER:

J.HOLLIFIELD, CSR 12564

TIME:

9:31 a.m.

APPEARANCES:

(As indicated on title page.)

(The following telephonic hearing was reported
in open court pursuant to CRC 3.670. The record
will reflect proceedings that were telephonically
transmitted. Failures in transmission will be noted.)
THE COURT: Parties on Gordon versus U.C.
Regents. It’s Number 1.
MR. O’CONNELL: Good morning, Your
Honor. Tom O’Connell on behalf of the Regents of Cal­
ifornia, appearing by CourtCall.
MS. AVILES: Good morning, Your Honor.
Kelly Aviles, appearing on behalf of petitioner and
moving party on the motion to be withdrawn.
THE COURT: Thank you very much.

App. 39
And you’re Mr. Gordon.
MR. GORDON:

I am Mr. Gordon.

[23] THE COURT:

...

There’s no record; correct?
MS. AVILES: They have - I mean, there
generally isn’t in a traditional case, but they have put
together what they deem the administrative record,
which is all the communications about the RR.A. re­
quest.
THE COURT: So the administrative record,
whatever that might be, would be lodged at the same
time that the reply brief is filed.
MR. GORDON:

Okay.

THE COURT: Do you follow me on that, Mr.
Gordon?
MR. GORDON: Yes. Am I required to file the
administrative record even though it is from them?
Shouldn’t they file it?
MS. AVILES: They - Tom, can you file the
administrative record on the date of the reply?
MR. O’CONNELL: That’s fine.
THE COURT: So that’s not an unusual pro­
cedure. So the Regents will lodge the administrative
record on March 12th, 2019.

App. 40
The reply will be filed and served no later than
March 12, 2019.
And I’m sure it will be Judge Hogue. We’ll see you
on March 27th, 2019. But if you want to be sure it’s not
me, Mr. Gordon, you might - you’re representing your­
self. I don’t want to give you any advice *

*

*

SUPERIOR COURT OF THE STATE OF CALIFORNIA
FOR THE COUNTY OF LOS ANGELES
DEPARTMENT CE-86
HON. MITCHELL L. BECKLOFF, JUDGE
CARL GORDON,
PETITIONER,
vs.
REGENTS OF THE
UNIVERSITY OF
CALIFORNIA, ET AL.,
RESPONDENT.

)
)
)
)
)
)
)
)

Case No.: BS165809
Reporter’s Certificate

I, J.Hollifield, Official Reporter of the Superior
Court of the State of California, for the County of Los
Angeles, do hereby certify that I reported in machine
shorthand, to the best of my ability, the telephonically
transmitted proceedings in the above case, pursuant
to California Rule of Court 3.670 and that the fore­
going Pages 1 through 26 comprise a full, true, and

App. 41
correct transcript of the proceedings telephonically
transmitted before me in the above entitled cause on
September 5, 2018.
Dated this 26th of September, 2018.
/s/ J.Hollifield
J.Hollifield, RPR, CSR 12564
Official Reporter

App. 42
GORDON v. REGENTS OF THE UNIVERSITY OF
CALIFORNIA
Case Number: BS165809
Hearing Date: September 4, 2019
ORDER DENYING IN PART AND GRANTING
IN PART PETITION FOR WRIT OF MANDATE
(Filed Sep. 4, 2019)
Petitioner Carl Gordon seeks a writ of mandate under
Code of Civil Procedure section 1085, subdivision (a),
and the California Public Records Act (CPRA) (Govern­
ment Code sections 6250 et seq.) requiring Respondent
Regent of the University of California to produce doc­
uments and unredacted documents concerning four
separate CPRA requests.
Respondent opposes the petition. Petitioner did not file
a reply.
The Petition is DENIED in part and GRANTED in part.
STATEMENT OF THE CASE1
On various dates in 2016, Petitioner made several
CPRA requests of Respondent.
1 The court ordered Petitioner to lodge the record with
the court when he filed his Reply Brief. Petitioner did not
file a Reply Brief. He also did not lodge the record. The
underlying facts are not disputed. The court has set forth
the undisputed facts as it discerned them from the briefs.
Therefore, the court has not set forth any citations to the
record. [MISSTATEMENT OF FACTS. Please see Apps. 25, 30,
31, and 39]

App. 43
On March 29, 2016, Petitioner requested the “donor
agreement between Lowell Milken and UCLA” and
“any communications relating to Mr. Milken’s $10 mil­
lion gift to UCLA for the establishment of the Lowell
Milken Institute for Business Law and Policy at the
UCLA School of Law in 2011” (Milken Request).
On April 4, 2016, Petitioner requested the “Donor
agreement between Donald T. Sterling Charitable
Foundation/the Los Angeles Clippers Foundation and
UCLA” and “any [communications] relating to Mr.
Sterling’s gifts of $3 million to UCLA in 2013 or 2014”
(Sterling Request).
On April 5, 2016, Petitioner requested the “donor
agreement between Dr. Sharon Baradaran, Mr. Younes
Nazarian, Mrs. Soraya Nazarian, David Nazarian,
members and representatives of the Y&S Nazarian
Family Foundation” and any communications relating
to donations made by the Nazarians (Nazarian Re­
quest).

App. 44
THE ADMINISTRATIVE RECORD
Presented by
Joel D. Kuperber1
©2001
LEAGUE OF CALIFORNIA CITIES
2001 Annual Conference
Joint City Attorneys/City Clerks Session
Challenges to the validity of local government de­
cisions are normally brought by means of mandamus,
either as traditional writs of mandate under Code of
Civil Procedure Section 1085, et seq., or as writs of ad­
ministrative mandate under Code of Civil Procedure
Sections 1094.5 and 1094.6. Invariably with respect to
administrative mandate, and increasingly with regard
to traditional writs of mandate, the administrative rec­
ord is central to the judicial determination whether the
challenged governmental action will be upheld or in­
validated.
This paper will discuss the purpose and function
of the administrative record in the context of local gov­
ernmental decision-making, and judicial review of
those decisions. In addition, this paper will describe
the procedures for preparing and filing or lodging the
administrative record when litigation has been filed to
challenge governmental action. Finally, this paper will
discuss some practical steps that will facilitate the

1 I wish to thank Ms. Natalie Edwards, a summer associate
at Rutan & Tucker for her assistance in preparing the paper.

App. 45
preparation of a complete, accurate administrative rec­
ord.
A. THE PURPOSE OF THE ADMINISTRATIVE
RECORD
The purpose and function of the administrative
record is perhaps best understood by analogy to civil
litigation. Writs of mandate involve a trial court sitting
in an appellate capacity to review the legality of legis­
lative, administrative and quasi-judicial decisions of a
local governmental entity. The administrative record,
which consists of the entire body of evidence presented
to the local decision-making body, is presented to the
trial court to assist in its review of the agency’s action.
In this sense, the administrative record is analogous to
the record on appeal and the clerk’s transcript of the
trial court proceedings that are presented to an appel­
late court when it reviews the propriety of a trial court
decision.
With specific reference to governmental decision­
making, the administrative record provides the basis
upon which to judge whether sufficient evidence sup­
ports the findings and decision of the governmental
agency. The process of rendering an administrative de­
cision can be compared to a three-layer pyramid. The
final decision of a governmental agency represents the
pinnacle of the pyramid, and constitutes a determina­
tion with respect to the underlying application or case
based upon required findings. The pinnacle of the pyr­
amid rests upon a middle layer comprising the findings

App. 46
that must be made to support the decision. The find­
ings, in turn, are based upon the evidence presented
with respect to the application or case, and serve to
“bridge the analytic gap between the raw evidence and
the ultimate decision or order,” Topanga Association
for a Scenic Community v. County of Los Angeles, 11
Cal. 3d 506,515 (1974). The administrative record rep­
resents the compilation and organization of all of the
evidence presented to the governmental entity for con­
sideration in connection with the application or case.
The relationship between the evidence comprising
the administrative record, the agency’s findings and its
ultimate decision, is analyzed at length in the Supreme
Court’s published decision in Topanga Association, su­
pra. The Topanga court invalidated the granting of a
variance by the Los Angeles Board of Supervisors be­
cause the administrative record did not support the
findings required for granting a variance. Analyzing
the relationship between the governmental decision,
findings, and the supporting evidence, the Topanga
court held that a governmental entity “must render
findings sufficient both to enable the parties to deter­
mine whether and on what basis they should seek re­
view and, in the event of review, to apprise a reviewing
court of the basis of the board’s decision.” (Id. at 514.)
Further, the reviewing court must “scrutinize the
record and determine whether substantial evidence
supports the administrative agency’s findings and
whether these findings support the agency’s decision.”
(Id.)

App. 47
Applying this test, the Topanga court concluded
that the evidence in the administrative record was in­
sufficient to support the requisite findings. Govern­
ment Code Section 65906, which governs the grant of
variances, authorizes a governmental entity to grant a
variance “only when, because of special circumstances
applicable to the property . . . the strict application of
the zoning ordinance deprives such property of privi­
leges enjoyed by other property in the vicinity and un­
der identical zoning classifications.” (Id. at 520.) The
evidence presented to the county, and set forth in the
administrative record, focused almost exclusively on
the qualities of the property for which the variance
was sought, rather than examining the difference be­
tween that property and the neighboring parcels. The
Topanga court reasoned that, in the absence of com­
parative data on surrounding properties, information
regarding the qualities of the subject property in the
abstract lacked legal significance with regard to the
finding of “special circumstances applicable to the
property.” In addition, evidence in the administrative
record suggesting that development of the subject
property in conformance with the general zoning re­
quirements would require substantial additional ex­
penditures likewise was not relevant to determining
whether the finding of “special circumstances applica­
ble to the property” could be made. (Id. at 521.)
Thus, in Topanga, the court determined that the
administrative record contained insufficient evidence
from which the governmental entity could make the
requisite finding in order to grant the variance. To

App. 48
sustain the validity of the governmental action, the
administrative record must contain evidence sufficient
to support the findings made by the agency, and those
findings must be sufficient to support the final decision
reached by the agency.
B. PROCEDURE FOR PREPARING AND FILING
THE ADMINISTRATIVE RECORD
California law sets forth two principal statutory
procedures for the judicial review of administrative
and quasi-judicial decisions. The California Adminis­
trative Procedures Act, Government Code Section
11500, et seq. governs administrative proceedings of
state agencies (e.g., Air Resources Board, Fair Political
Practices Commission, Department of Motor Vehicles),
and judicial review of those proceedings. With respect
to proceedings under the Administrative Procedures
Act, the administrative record includes the following
types of documents:
1.

The pleadings filed with the administrative
law judge.

2.

All notices and orders issued by the agency.

3.

Any proposed decision by the administrative
law judge.

4.

The final decision or the administrative law
judge.

5.

A transcript of all proceedings before the ad­
ministrative law judge.

6.

The exhibits admitted or rejected.

App. 49
7.

The written evidence.

8.

Any other papers in the case.

(Government Code Section 11523.)
Judicial review of most local governmental deci­
sions that are administrative or quasi-judicial in char­
acter are governed by Sections 1094.5 and 1094.6 of
the Code of Civil Procedure. Similar to Government
Code Section 11523, Code of Civil Procedure Section
1094.6(c) defines the scope of the administrative record
as follows:
Such record shall include the transcript of
the proceedings, all pleadings, all notices and
orders, any proposed decision by a hearing of­
ficer, the final decision, all admitted exhibits,
all rejected exhibits in the possession of the
local agency or its commission, board, officer,
or agent, all written evidence, and any other
papers in the case.
In addition to the general provisions of Code of
Civil Procedure Section 1094.6(c), the California Envi­
ronmental Quality Act, Public Resources Code Section
21000, et seq. (“CEQA”) establishes special procedures
and requirements for administrative records in CEQA
litigation. Public Resources Code Section 21167.6(e)
provides that the “record of proceedings” shall include,
but is not limited to, all of the following items:
1.

All project application materials.

2.

All staff reports and related documents pre­
pared by the public agency with respect to
its compliance with the substantive and

App. 50
procedural requirements of CEQA and with
respect to the action on the project.
3.

All staff reports and related documents pre­
pared by the public agency and written testi­
mony or documents submitted by any person
relevant to any findings or statement of over­
riding considerations adopted by the agency
pursuant to CEQA.

4.

Any transcript or minutes of the proceedings
at which the decision-making body of the pub­
lic agency heard testimony on, or considered
any environmental document on, the project,
and any transcript or minutes of proceedings
before any advisory body to the public agency
which were presented to the decision-making
body prior to action on the environmental doc­
uments or on the project.

5.

All notices issued by the public agency to com­
ply with CEQA or with any other log govern­
ing the processing and approval of the project.

6.

All written comments received in response to,
or in connection with, environmental docu­
ments prepared for the project, including re­
sponses to the notice of preparation.

7.

All written evidence or correspondence sub­
mitted to, or transferred from, the public
agency with respect to compliance with CEQA
or with respect to the project.

8.

Any proposed decisions or findings submitted
to the decision-making body of the public
agency by its staff, or the project proponent,
project opponents, or other persons.

App. 51
9.

The documentation of the final public agency
decision, including the final environmental
impact report, mitigated negative declaration,
or negative declaration, and all documents, in
addition to those referenced in paragraph (3)
cited or relied on in findings or in a statement
of overriding considerations adopted pursu­
ant to CEQA.

10. Any other written materials relevant to the
public agency’s compliance with CEQA or to
its decision on the merits of the project, in­
cluding the initial study, any drafts of any en­
vironmental document, or portions thereof,
which have been released for public review,
or other copies of studies or other documents
relied upon in any environmental document
prepared for the project and either made
available to the public during the public re­
view period or included in the public agency’s
files on the project, and all internal agency
communications, including staff notes and
memoranda relating to the project or in com­
pliance with CEQA.
11. The full written record before any inferior ad­
ministrative decision-making body whose
decision was appealed to a superior admin­
istrative decision-making body prior to the fil­
ing of litigation.
Given the analytical process that agencies must
follow in making governmental decisions - by which
governmental decision must be based upon sufficient
findings, which findings in turn must be based upon
evidence in the administrative record - the completeness

App. 52
of the administrative record is critical. Courts conduct­
ing judicial review of administrative or quasi-judicial
governmental decisions will limit their evidentiary re­
view only to those matters set forth in the administra­
tive record. See, Western States Petroleum Association
v. Superior Court, 9 Cal. 4th 559, 570 (1995)\ Friends of
the Old Trees v. Department of Forestry, 52 Cal. App.
4th 1383,1392 (1997). As a result, a person challenging
the propriety of the governmental decision is entitled
to have the entire record of the administrative proceed­
ings presented to the court for review. When the ad­
ministrative record is incomplete, the court may
compel the parties to reconstruct the record. However,
if they were unable or refuse to do so, courts have or­
dered new administrative hearings for the specific
purpose of providing an adequate record to permit ju­
dicial review. See, Chavez v. Civil Service Commission,
86 Cal. App. 3d 324, 332, (1978); Hadley v. City of On­
tario, 43 Cal. App. 3d 121,127 (1974).
C. PROCEDURES FOR PREPARING AND FILING
THE ADMINISTRATIVE RECORD
Governmental officials and employees frequently
will become aware during the pendency of an adminis­
trative hearing that the decision likely will be the sub­
ject of a court challenge, and that the agency will be
required to prepare an administrative record to facili­
tate judicial review of its action. In these cases, agency
staff, working in conjunction with the clerk and coun­
sel, may commence preparation of the administrative
record prior to the formal commencement of litigation.

App. 53
Indeed, this advance knowledge provides legal counsel
the opportunity to ensure the completeness of the ad­
ministrative record, and the inclusion of all evidence
necessary to support any required findings for the de­
cision.
In this instance, legal counsel should work with
the agency staff to determine what findings must be
made in order for the agency to take the proposed ac­
tion. Then, a careful analysis should be undertaken of
the type and nature of evidence necessary to provide a
sufficient evidentiary basis for each of the required
findings. Efforts should then be undertaken to gather
this evidence and include it in the administrative rec­
ord, in the form of staff analyses, memoranda to the
governmental decision-makers or the advisory bodies
or, in the case of technical studies and background
works, appendices to staff reports or memoranda. Ad­
vance knowledge of the likelihood of litigation also per­
mits legal counsel the opportunity to include in the
administrative record resumes or curricula vitae of the
staff employees or consultants providing analysis of
the application or case, in order to establish evidence
of their expertise and knowledge.
In most cases, however, efforts to compile the ad­
ministrative record will not commence until litigation
is formally instituted against the agency challenging
the governmental decision. The following sets forth a
general procedure for the preparation and filing or
lodging of the administrative record subsequent to the
initiation of litigation.

App. 54
1. Request For Administrative Record
The preparation of the administrative record is
typically triggered by a formal request served upon the
agency by the petitioner (i.e., the plaintiff or chal­
lenger). Under both the Administrative Procedures
Act and the Code of Civil Procedure provisions for ad­
ministrative mandate, there is no formal deadline by
which the petitioner must request the administrative
record. (See, Government Code § 11523, Code of Civil
Procedure § 1094.6). However, with respect to CEQA
challenges, the petitioner must file with the court his
or her request that the public agency prepare the rec­
ord of proceedings relating to the subject of the action
or proceeding, and serve that request upon the public
agency no later than 10 business days from the date
that the litigation was filed. Public Resources Code
21167.6(a).
2. Payment for Administrative Record
The various procedures for judicial review of gov­
ernmental actions are consistent in requiring that the
petitioner pay the cost of preparing the administrative
record. The Administrative Procedures Act provides
that the petitioner is responsible for paying a statutory
fee for the preparation of any transcripts, as well as
the cost of preparation of the other portions of the
record and its certification (Government Code § 11523).
Code of Civil Procedure section 1094.5(a) provides
that, “[e]xcept when otherwise prescribed by statute,
the cost of preparing the record shall be borne by the

App. 55
petitioner.” Code of Civil Procedure section 1094.6(c)
further provides that the local agency “may recover
from the petitioner its actual cost for transcribing
or otherwise preparing the record.” Under section
1094.5(a), if the party paying the cost of preparing the
administrative record ultimately prevails in the litiga­
tion, that prevailing party may recover the costs paid
for the preparation of the record as court costs.
3. Completion of the Administrative Record
California law establishes very different deadlines
for completing the administrative record, depending
upon the statute that governs the litigation. Under the
Administrative Procedures Act, the agency must com­
plete and deliver to the petitioner the administrative
record within 30 days after the petitioner makes a re­
quest for the administrative record, provided that the
petitioner has paid the requisite fees for the transcript
and other portions of the record and its certification.
This time period may be extended by the administra­
tive law judge for good cause shown (Government Code
§ 11523). Further, under the Administrative Proce­
dures Act, if the petitioner prevails in overturning the
governmental decision, the agency shall reimburse the
petitioner for all costs paid to the agency for transcript
preparation, compilation of the record and its certifica­
tion. By contrast, Code of Civil Procedure section
1094.6(c) requires that the administrative record shall
be prepared by the agency that made the decision, and
delivered to the petitioner within 190 days following

App. 56
the date that the petitioner files his or her written re­
quest for the administrative record.
The CEQA procedure governing administrative
records is somewhat different. Under Public Resources
Code section 21167.6(b)(1), the respondent public
agency shall prepare and certify the administrative
record no later than 60 days from the date that the pe­
titioner serves upon the agency the request for prepa­
ration of the record. This time limit may only be
extended upon the stipulation of all of the served par­
ties, or by court order. While “[extensions shall be lib­
erally granted by the court when the size of the record
of proceedings renders infeasible compliance with that
time limit,” and “[t]here is no limit on the number of
extensions which may be granted by the court,” the
court may not grant any single extension for more than
60 days unless the court makes a finding that a longer
extension is in the public interest (§ 21167.6(c)). If the
respondent public agency fails to prepare and certify
the record within the time limit established by the
statute, subject to any continuances, the petitioner
may move for sanctions; and Public Resources Code
section 21167.6(d) provides that the court may grant
“appropriate” sanctions against the public agency for
failure to timely prepare the administrative record.
4. Lodging the Administrative with the Court
The Administrative Procedures Act does not spe­
cifically provide for the lodging or filing of the admin­
istrative record with the court reviewing the agency’s

App. 57
action. Code of Civil Procedure section 1094.5(a), by
contrast, provides that “all or part of the record pro­
ceedings . .. may be filed with the petition, may be filed
with respondent’s points and authorities, or may be or­
dered to be filed by the court.” In this regard, Rule 347
of the California Rules of Court provides that any
party intending to use part of the Administrative Rec­
ord in a case brought under section 1094.5 must lodge
that part of the record with the court at least 5 days
before the hearing. In CEQA cases, Public Resources
Code section 21167.6(b)(1) provides that, upon certify­
ing the administrative record, the governmental
agency must lodge a copy of the administrative record
with the court, and serve upon the parties a written
notice that the record has been certified and lodged.
D. PRACTICAL POINTERS FOR PREPARING THE
ADMINISTRATIVE RECORD
Administrative records vary considerably in size,
depending upon the nature of the application or case,
the extent of public agency review and analysis, and
the level of public controversy and input. For example,
a governmental decision to grant a conditional use per­
mit for the construction of a car wash, based upon the
adoption of a negative declaration, will likely generate
a much smaller administrative record than a decision
to certify an environmental impact report and ap­
prove a general plan amendment, zone change and
subdivision map to accommodate the development of
2,000 residential units and 1 million square feet of
retail commercial uses. Regardless of the size of the

App. 58
administrative record, however, the agency should act
with care to ensure that the administrative record in­
cludes all required and relevant documents, and is or­
ganized in a way that will facilitate judicial review of
the governmental decision.
The following is a proposed chronological proce­
dure for the preparation of a relatively large adminis­
trative record. While it may be possible to forego some
of the detailed suggestions in connection with a rela­
tively small administrative record, it is recommended
that all of the following steps be taken to ensure com­
pleteness and accuracy of the record.
1. Defining the Scope of Administrative Record.
Upon receiving a request for the administrative record,
or upon determining the need to prepare the adminis­
trative record, the clerk or legal counsel should con­
vene a meeting of all individuals who will have
responsibility for participating in the preparation of
the record. This group will normally include a repre­
sentative from the clerk’s office, legal counsel, the staff
employee who served as the project manager or re­
sponsible staff member for the application or case, and
any other staff employees who played a significant role
in processing the application or case for which the ad­
ministrative record is sought. The purpose of the meet­
ing is to define the scope of the administrative record,
identify the major components to be included within
the record, and assign responsibility for the compila­
tion of various portions of the administrative record
under the ultimate supervision and control of the clerk
and/or legal counsel. With regard to assignment of

App. 59
roles, in a case involving a challenge to a conditional
use permit, for example, the clerk (or legal counsel)
would normally be responsible for collecting the public
hearing notices and preparing the transcripts of the
public hearing leading up to the conditional use permit
decision, while the staff planner assigned to oversee
the application would be responsible for collecting
and organizing the staff reports, environmental docu­
ments, and all correspondence or other transmittals
relating to the project.
In defining the scope of the administrative records,
it is first necessary to identify the major components of
the record. Staff employees familiar with application
or case should explain to the others at the meeting the
general chronology leading up to the governmental de­
cision, including the dates of each hearing or meeting
before the decision making body, before each advisory
body (e.g, planning commission). This definition will
assist all members of the group in understanding the
types of evidence that must be included in the admin­
istrative record.
In the land use context, development approvals
are frequently granted in the form of concurrent agency
approvals of a various different land use entitlements
or regulations. For example, a large development pro­
ject may entail certification of an environmental im­
pact report, approval of a general plan amendment
and zone change, and the approval of a subdivision
map and development agreement. Even if the legal
challenge is directed only to one of the governmental
approvals for the development (i.e., the litigation

App. 60
challenges only the subdivision map for the project),
it may be important to define the scope of the adminis­
trative record to include all of the land use entitlements
and regulations that were concurrently approved by
the agency because of the overlapping relevance of the
evidence relating to each of the approvals.
2. Designating the Documents to Be Included in
the Record. After defining the scope of the administra­
tive record, the next step is a careful review of all of
the documents relating to the application or case for
which the record is sought, and the preparation of a
preliminary index or table of contents based upon
those documents. During this process, numerous docu­
ments will be identified that seemingly do not belong
in the administrative record. These documents nor­
mally include preliminary drafts of staff reports,
memos and other analyses; internal memos that relate
only to procedural matters such as the scheduling of
staff meetings or the internal circulation of documents;
and copies of otherwise relevant documents. Although
not included in the initial risk of documents for the ad­
ministrative record, these other documents should be
retained in the agency’s files for later review and to as­
sist in a final review of record to ensure its complete­
ness.
In defining the components of the administrative
record, the agency should not overlook documents that
may not have been physically presented to the deci­
sion-makers in connection with the challenged deci­
sion, but which are referred to or incorporated by
reference in staff reports, environmental documents

App. 61
and other materials provided to the governmental de­
cision-makers. In the CEQA context, it is important
that the administrative record include all technical
studies and reports (e.g., traffic studies, noise studies,
biological surveys, archaeological reports) which pro­
vide the foundation for the analyses and conclusions in
the environmental impact report or negative declara­
tion. Similarly, where the application or case involves
findings relating to the general plan, or the decision
relates in some manner to one or more provisions of
the municipal code, general plan or municipal code ex­
cerpts should be included in the administrative record.
Finally, a review should be undertaken of e-mail corre­
spondence between staff members and consultants
participating on the project, as the e-mails may be ap­
propriate for inclusion in the administrative record.
3. Preparing the Hearing Transcripts. Because
public hearings play such an important role in evalu­
ating the propriety of governmental decisions, the
agency must take particular care in preparing the evi­
dence relating to those public hearings. In most agen­
cies, meetings and hearings are audio tape recorded; in
some cases, where either the agency or a challenger
anticipates the litigation, a certified shorthand re­
porter (“CSR”) will transcribe the proceedings, either
in addition or to or as a substitute to the audio record­
ing. Where a written transcription of the proceeding
has been prepared, it may be used if it was prepared in
a professional manner by a neutral preparer. Courts
have excluded transcriptions of hearings prepared by
persons deemed to have an interest in the litigation

App. 62
(see Watts v. Civil Service Board, 59 Cal. App. 4th 939
(1997)).
Where the agency’s record of the proceedings is
based upon audio tapes, either the clerk or legal coun­
sel should oversee the retention of a CSR to prepare a
transcription of the audio tapes. As difficult as it may
be for a CSR to attend a public hearing and transcribe
all of the proceedings, it is considerably more difficult
for a CSR to transcribe the proceedings from an audio
tape. This results from the fact that, in a typical public
hearing, numerous staff employees and members of
the public speak (many without identifying them­
selves), in addition to frequent questions and com­
ments from the members of the decision making body.
If the agency videotapes its meetings, a copy of the vid­
eotape should be provided to the CSR to assist in iden­
tifying the person speaking at any given time during
the hearing. In addition, the staff employee most famil­
iar with the application or case for which the record is
being prepared should assist the CSR at the outset by
identifying from the tape the various members of the
decision making body, as well as the staff employees.
Once the CSR completes the draft transcription of
the proceedings, the draft should be circulated for re­
view by the clerk, legal counsel and the staff employee
most familiar with the application or case, with partic­
ular emphasis on verifying the correct identification of
each speaker and the transcription of names and tech­
nical terms and phrases. Through this process, the fi­
nal transcription of the proceedings should accurately
reflect what each participant said during the hearing.

App. 63
4. Organizing the Administrative Record. After
the hearing transcripts are complete, and all of the
relevant notices, staff reports, memoranda and corre­
spondence regarding the application or case have been
gathered, the agency should copy and organize the doc­
uments. (Copies of the documents should be made at
this point, in order to maintain the integrity of the
agency’s original documents.) Typically, administra­
tive records are assembled in chronological order. How­
ever, depending upon the nature of the challenge, a
different organization of the record should be consid­
ered. For example, if the principal issues in dispute re­
lates to the adequacy of notice of the public hearing on
the application or case, the agency may wish to aggre­
gate all of the public notices, mailing lists and similar
documents in the first volume of the administrative
record. However, in most cases, particularly those in
which the agency’s action is challenged because of the
claim that insufficient evidence supports the findings
made by the agency to support its decision, a chrono­
logical ordering of the administrative record is pre­
ferred.
Upon assembling and organizing the administra­
tive record, the record should be marked to permit
quick, easy access to the portions sought to be re­
viewed. The older, less common method of marking the
administrative record involves a numerical or alpha­
betical designation for each component of the record
but without marking each page of every document. For
example, each separate document might be chronolog­
ically marked by number or letter. The modern, more

App. 64
common method of marking the administrative record
is to chronologically paginate each page of the admin­
istrative record using a “bate stamp” or similar device.
Litigants and the court prefer the “bate stamp” method
of marking the administrative record, because it allows
them to easily and specifically identify where relevant
information or evidence is located.
5. Assembling the Administrative Record. Once
the administrative record is organized and marked,
the agency should prepare the index or table of con­
tents to it. Based upon the size of the administrative
record, the agency should determine whether the rec­
ord may be assembled in a single volume, or whether
it should be divided into multiple volumes. The divi­
sion of the record into volumes affects the format of the
table of contents to the record.
The table of contents should separately designate
each document in the administrative record by title,
date and, if applicable, author, as well as note where
in the administrative record (i.e., at what page) the
document may be found. Where the administrative
record consists of more than one volume, the complete
table of contents should precede the first volume of
the record. With regard to subsequent volumes of the
record, either the complete table of contents (if it re­
flects the division of the record by volume), or that por­
tion of the table of contents relating to the specific
volume, should be included at the beginning of each
subsequent volume of the administrative record.

App. 65
6. Final Review and Certification. After the ad­
ministrative record is fully assembled with the table of
contents, the individual most familiar with the record
should carefully review it to ensure its accuracy and
completeness. Upon determining the completeness and
accuracy of the administrative record, the clerk should
prepare and execute a certification, to be placed at the
front of the first volume of the record. While adminis­
trative record certifications vary considerably by form,
and no specific statutory language is required, the fol­
lowing is one possible form of certification:
CERTIFICATION OF ADMINISTRATIVE RECORD
I hereby certify that the following documents, consisting of
bound volumes,
consecutively paginated as pages
through
__ inclusive, constitute the full, true and cor­
rect Administrative Record relating to
____________ [name of application or case].
These volumes comprise the Administrative
Record for
Ititle of lawsuit] Superior
Court Case No.
I declare under penalty of perjury under
the laws of the State of California that the
foregoing is true and correct.
Executed at
2001.

., California on

[name and title]
Copies of the completed administrative record should
be made for each of the parties to the litigation, as well

App. 66
as the court. Further, it is common in many jurisdic­
tions to provide an additional, “courtesy” copy of the
administrative record, or the most relevant excerpts of
the administrative record, to the court for quick and
easy review by the judge hearing the matter.
E. CONCLUSION
As stated at the outset, the administrative record
plays a crucial role in the judicial review of governmen­
tal decision-making, because the record constitutes the
entirety of the evidence which the court will review in
determining whether the agency acted appropriately.
For this reason, and because each party to the litiga­
tion should have the full opportunity to represent its
interests before the court, the agency must expend the
time, effort and resources necessary to ensure that the
administrative record includes all of the documents
relevant to a review of the governmental decision un­
der challenge. By preparing a complete, full, accurate,
and well-organized administrative record, the agency
helps to ensure that its challenged decision will be
fully and fairly adjudicated.

